OIG Audit Report GR-90-09-002

Office of Justice Programs Services for Trafficking Victims Grant Awarded to the Coalition to Abolish Slavery and Trafficking, Los Angeles, California
Audit Report GR-90-09-002
January 2009
Office of the Inspector General


Executive Summary


The Office of the Inspector General, Audit Division, has completed an audit of the Services for Trafficking Victims Grant (2004-VT-BX-K001) awarded by the U.S. Department of Justice, Office of Justice Programs (OJP), to the Coalition to Abolish Slavery and Trafficking (CAST), located in Los Angeles, California.  The purpose of the grant was to:  (1) assist victims of trafficking with immediate needs of food, clothing, and shelter, then provide counseling and legal assistance with the goal of obtaining permanent legal status; (2) assist law enforcement and other concerned parties through educational means in their efforts against trafficking; and (3) increase public awareness of the horrors of trafficking and its presence in society.  As of December 31, 2006, OJP had awarded CAST a total of $1,295,000, of which CAST expended $1,172,460.
The objective of the audit was to determine whether cost reimbursements claimed under the grant were allowable, supported, and in accordance with applicable laws, regulations, guidelines, and terms and conditions of the grant.  We tested CASTs compliance with essential grant conditions, including budget management and controls, grant expenditures, grant drawdowns, local match requirements, and reporting requirements.
CAST generally complied with grant requirements.  However, we noted areas of concern in budget and management control, reporting requirements, and in-kind matching contributions.  These included the lack of detail in the general ledger, the use of grant funds for activities not authorized in the budget, and the lack of support for in-kind matching contributions.  In addition, CAST needs to improve its reporting practices with regard to the semiannual progress reports.  While the reports were well-written and informative, they need to provide a more detailed and consistent assessment of CASTs efforts in achieving the goals of the grant.  We made 5 recommendations to remedy questioned costs totaling $112,566 and to improve CASTs grant management practices.
We discuss these matters in the Findings and Recommendations Section of this report.  We discussed the results of our audit with CAST officials and have included their comments in the report, as applicable.  In addition, we requested written responses to our draft report from CAST and OJP, which are included in this report as appendices III and IV, respectively.  Our audit objective, scope, and methodology appear in Appendix II of this report.



 




Return to OIG Home Page